No.
IN THE SUPREME COURT OF THE UNITED STATES

AGUSTIN CHAVEZ, PETITIONER
v.
STATE OF FLORIDA, RESPONDENT.
_____________

ON PETITION FOR A WRIT OF CERTIROARI TO
THE DISTRICT COURT OF APPEAL OF FLORIDA, FOURTH DISTRICT
_____________
PETITIONER’S MOTION TO PROCEED IN FORMA PAUPERIS

CAREY HAUGHWOUT

Public Defender

Logan T. Mohs

Assistant Public Defender
Counsel of Record
Office of the Public Defender
Fifteenth Judicial Circuit of Florida
421 Third Street
West Palm Beach, FL 33401
(561) 355-7600
appeals@ pd15.state.fl.us
lmohs@pd15.state.fl.us

The Petitioner, Agustin Chavez, moves this Court, pursuant to Rule 39.1,
Rules of the Supreme Court, to declare him indigent and allow him to proceed in
forma pauperis in this cause, in particular to waive any filing fees. As grounds
therefore, Petitioner says:
1. Petitioner applies for a writ of certiorari to review the decision of the
Fourth District Court of Appeal that resulted in the affirmance of his life
sentence based on judicially-found factors.
2. Petitioner was declared indigent for purposes of appeal.
3. Petitioner has been jailed or imprisoned since 2017. He is now indigent
and without funds to pay any fees or costs in this action. The state court
below appointed the office of undersigned counsel for Petitioner as an
indigent party pursuant to section 27.51(1)(f), Florida Statutes.
4. Federal law requires all courts of the United States to allow
commencement and prosecution of any suit without prepayment of fees or
costs upon the showing made above. 28 U.S.C. § 1915(a).
5. Refusal to allow Petitioner to proceed in forma pauperis would deny him
equal protection of the law, meaningful access to the courts, and due
process of law because he cannot otherwise get the review to which a more
affluent defendant would be entitled. See Burns v. Ohio, 360 U.S. 252
(1959) (fees should be waived for discretionary appeal by indigent); Smith

v. Bennett, 365 U.S. 708 (1961) (fees should be waived for indigent
prisoner seeking state habeas relief).

1

WHEREFORE, Petitioner moves that this Court declare him indigent and
allow filing and prosecution of his petition without payment of any fees or costs.
Respectfully submitted,
CAREY HAUGHWOUT
Public Defender
15th Judicial Circuit of Florida
421 Third Street
West Palm Beach, Florida 33401
(561) 355-7600
_____________________
Logan T. Mohs
Assistant Public Defender
Counsel of Record
appeals@pd15.state.fl.us
lmohs@pd15.state.fl.us

2

